<html>
<title> - NOMINATION OF RYAN C. CROCKER</title>
<body><pre>[Senate Hearing 112-86]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-86
 
                     NOMINATION OF RYAN C. CROCKER

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 8, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations


         Available via the World Wide Web: http://www.fdsys.gov


                  U.S. GOVERNMENT PRINTING OFFICE
68-224                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e6819689a6859395928e838a96c885898bc8">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Crocker, Hon. Ryan C., of Washington, nominated to be Ambassador 
  to the Islamic Republic of Afghanistan.........................     6
    Prepared statement...........................................     8
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
McCain, John, U.S. Senator from Arizona, statement...............     4

                                 (iii)

  


                     NOMINATION OF RYAN C. CROCKER

                              ----------                              


                        WEDNESDAY, JUNE 8, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. Ryan C. Crocker, of Washington, to be Ambassador to the 
        Islamic Republic of Afghanistan
                              ----------                              

    The committee met, pursuant to notice, at 9:30 a.m. in room 
SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Cardin, Casey, Webb, Shaheen, 
Coons, Udall, Lugar, Corker, Risch, and Isakson.
    Also present: Senator John McCain.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    Thank you all very much. I apologize for being slightly 
tardy here.
    We welcome our friend and our colleague, Senator John 
McCain. We're delighted to have him here for the purposes of 
making an introduction.
    Obviously, we're here today to consider President Obama's 
nominee for Ambassador to Afghanistan, and I think we are very 
fortunate that the President has chosen one of America's most 
experienced and able diplomats to serve in Kabul, and we're 
very fortunate that Ambassador Ryan Crocker has agreed to 
serve.
    We're happy to welcome him again before the Foreign 
Relations Committee. As everybody knows, in his distinguished 
career he has served as ambassador to five countries, including 
such challenging posts as Pakistan, Iraq, and Lebanon; and 
immediately after the Taliban's ouster he became charge 
d'affaires in Afghanistan, reopening our Embassy for the first 
time since 1989. So this is a man with experience in the region 
and experience in these complicated and difficult tasks.
    I think he thought he had retired to a quiet life in 
academia, but the President had another idea, and I want to say 
on behalf of all of us how grateful we are, Ambassador Crocker, 
that you and your wife Christine were willing to agree to 
return to public service.
    Obviously, you will arrive in this post at a pivotal moment 
in the conflict. We have a critical planning window in front of 
us right now. This is a critical moment. It's a moment where we 
have the ability to recalibrate, if that's what's needed, to 
redefine, and to do the things necessary in the wake of the 
successes that we have had against al-Qaeda, which was the 
principal reason for being in Afghanistan in the first place. 
So in order to ensure a transition, I think there are a number 
of things that need to be thought through.
    Last month we held five hearings on Afghanistan and 
Pakistan to examine all the assumptions guiding our strategy in 
the region and to help chart a path forward. In about 2 weeks, 
Secretary of State Clinton will testify here on the 
administration's thinking and address congressional concerns as 
the President decides how many troops to draw down starting in 
July. Needless to say, I think it would be very helpful if this 
committee and the Senate can move very rapidly on this 
nomination in order to put you in place to be part of those 
deliberations.
    I'd just say very quickly--I know Senator McCain is here, 
so I'll truncate this. But I'll just say very quickly that I 
think we ought to be guided by certain truths here. First, 
while the United States has genuine national security interests 
in Afghanistan, our current commitment in troops and in dollars 
is neither proportional to our interest nor sustainable, in my 
judgment.
    Second, our military has made significant gains, clearing 
and holding in the south, but as the President has said, 
they're fragile and reversible absent continued U.S. robust 
presence there. We've not yet made sufficient gains in the 
east, where the threat from insurgent groups based in Pakistan 
continues, and I will continue to beat this drum that the 
principal equation with respect to our capacity to resolve 
concerns in Afghanistan still lies in Pakistan and will lie in 
our ability to adjust that relationship, and indeed to create a 
regional framework with respect to this conflict. I want to 
emphasize that regional framework.
    Third, only a political settlement will resolve this. Every 
military leader has said that. There is no military solution. 
Reconciliation is not a silver bullet, but we're going to need 
to support the Government of Afghanistan as it tries to engage 
those willing to make some kind of acceptable agreement.
    And finally, we need to reexamine the current plan with 
respect to the Afghan National Security Forces because there 
are serious questions about size, capability, sustainability, 
and I think we need to examine those very carefully.
    Also today, the majority on the committee is releasing a 
report regarding assistance. This is a report meant to be 
constructive. It's a report with critical observations but 
observations that are made in the best spirit of joint 
cooperative effort, and we appreciate Administrator Shah's 
responses and assistance, and we appreciate the 
administration's cooperation with us in efforts to address the 
concerns that we have.
    The report argues that U.S. assistance needs to meet three 
basic conditions before that money is dispensed. The projects 
have got to be necessary, achievable, and sustainable.
    So over the next few months, there's a lot on the table for 
the Congress and for the President, and Ambassador Crocker is 
going to have an essential role, a critical role to play in 
making sure that we get it right.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you, Mr. Chairman. I join you in 
welcoming our very distinguished nominee.
    Ambassador Crocker has returned from his well-earned 
retirement to again apply his unsurpassed experience at 
managing civil-military collaboration in a dynamic conflict 
environment. I thank him for his commitment and know that he 
will bring insight and informed judgment to his job in Kabul.
    This is the sixth hearing the Foreign Relations Committee 
has held related to Afghanistan during the last 2 months. We 
have explored not just what is happening in Afghanistan and 
neighboring Pakistan, but whether our vast expenditures in 
Afghanistan represent a rational allocation of our military and 
financial assets.
    Our geostrategic interests are threatened, not just by 
terrorism, but by debt, economic competition, energy and food 
prices, the proliferation of weapons of mass destruction, and 
numerous other forces. Solving these problems will be much more 
difficult if we devote too many resources to one country that, 
historically, has frustrated nation-building experiments.
    The question the President must answer is whether we can 
achieve the most important national security goals in 
Afghanistan--especially preventing the Taliban from taking over 
the government and preventing Afghan territory from being used 
as a terrorist safe haven--at far less expense.
    Ambassador Crocker would be assuming his post coincident 
with the Obama administration's review of Afghanistan policy 
that is anticipated to result in some level of troop reduction. 
This opportunity should be used to do more than just withdraw 
an arbitrary number of troops based on political expediency. 
Rather, the President should put forward a new plan that 
includes a definition of success in Afghanistan based on the 
United States vital interests and a sober analysis of what is 
possible to achieve.
    Such a plan should include an explanation of what metrics 
must be satisfied before the country is considered secure. It 
should also designate and eliminate those activities that are 
not intrinsic to our core objectives. The administration's 
ambiguity on our goals must be eliminated in order to more 
effectively address our national security interests and convey 
to Afghans the continuing relationship we will maintain as 
allies in the region.
    Despite 10 years of investment and attempts to better 
understand the culture and the region's actors, we remain in a 
cycle that produces relative progress but fails to deliver a 
secure political or military resolution. In Afghanistan, 
measuring success according to relative progress has very 
little meaning. Undoubtedly, we will make some progress when we 
are spending more than $100 billion per year in that country. 
The more important question is whether we have an efficient 
strategy for protecting our vital interests that does not 
involve massive open-ended expenditures and does not require us 
to have more faith than is justified in Afghan institutions.
    I would appreciate hearing the nominee's impressions of the 
Obama administration's strategic review and of how we can 
improve Afghanistan's capacity to defend and govern itself, 
while reducing our own commitment of resources.
    I applaud Ambassador Crocker's willingness, once again, to 
take on an extremely difficult mission, and I look forward to 
his testimony.
    I thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    As I said previously, it is a privilege for the committee 
to welcome Senator McCain. As the ranking member and chair and 
so forth, back and forth on the Armed Services Committee, 
there's nobody with more experience in these matters or who 
pays more attention to them in the Senate, and I appreciate his 
taking the time to be here to introduce Ambassador Crocker.
    Senator McCain.

                 STATEMENT OF HON. JOHN McCAIN,
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you very much, Mr. Chairman, and 
thank you for your kind words, and thank you for indulging me 
to introduce this great American.
    Senator Lugar and members of the committee, it's an honor 
to introduce the President's nominee to be the U.S. Ambassador 
to Afghanistan, Ryan Crocker, a man whose stellar record of 
service precedes him and speaks for itself.
    Obviously, I join the committee in recognizing two members 
of Ambassador Crocker's family who are joining him today, his 
niece Cameron, and of course the dedicated woman who has been 
by his side ever since they were young Foreign Service officers 
working together in Baghdad in 1979, Ryan's wife, Christine.
    I understand the challenges of being a Foreign Service 
couple, and I know that Ryan could never have enjoyed as many 
successes without the support of Christine.
    Those successes make the task of introducing Ambassador 
Crocker quite easy. The U.S. Senate has had the wisdom to 
confirm him to the post of ambassador, as the chairman pointed 
out, five times already--Lebanon, Kuwait, Syria, Pakistan, and 
Iraq. And this is only a fraction of Ambassador Crocker's 
story.
    When the U.S. Embassy in Beirut was bombed, Ryan Crocker 
was a young officer who helped pull wounded colleagues from the 
rubble. When the United States needed to reopen our Embassy in 
Afghanistan after the Taliban were driven from power in 2001, 
the Secretary of State sent Ryan Crocker. A few years later, 
facing the same challenge in Iraq after the fall of Saddam 
Hussein, once again Ryan Crocker was the only man for the job. 
It is nearly impossible to find other American diplomats who 
can match his record.
    I had met Ambassador Crocker in his earlier posts, but 
where I really came to know him and to respect him most was 
during his amazing tour in Baghdad. It is difficult to remember 
just what Ambassador Crocker was getting himself into when he 
raised his hand to serve in 2007. The violence in Iraq was 
spiraling out of control. Dozens of civilians were being killed 
every day. The ethnic and sectarian battle lines were drawn. 
Iraq faced the very real prospect of tearing apart, and America 
faced the horrifying possibility of being driven from the 
country in defeat.
    Fortunately, President Bush adopted a new policy, and of 
all the consequential decisions that he made in January 2007--
the change of strategy, the surge of forces, the nomination of 
GEN David Petraeus--one of the most important and least 
appreciated was the nomination of Ryan Crocker as his 
Ambassador to Iraq.
    I'm sure that if you asked Ambassador Crocker, he will say 
he was just doing his part to serve his country where and when 
he was needed most. Heroes always say that. The truth is, what 
Ambassador Crocker accomplished in Iraq was nothing short of a 
miracle. General Petraeus has obviously received huge praise 
for the role he played in Iraq, and he deserves every bit of 
it. But as General Petraeus would be the first to affirm, our 
military strategy in Iraq would never have worked without Ryan 
Crocker's constant, dogged, and tireless leadership of our 
political strategy.
    Ambassador Crocker put the U.S. Embassy in Baghdad on a 
counterinsurgency footing. He established a seamless 
partnership with General Petraeus and his military leaders 
which set the standard for civil-military partnerships at every 
level of our effort across Iraq. He also established a 
relationship of trust with Prime Minister Maliki and his 
government, and then used that relationship to push, prod, 
encourage, and support the Iraqis in saving their country.
    Throughout this struggle, as rockets smashed into his 
office in Baghdad, Ryan Crocker performed his duties with 
courage, poise under pressure, a unique ability to marry 
strategic vision with tactical effectiveness, and a relentless 
work ethic that literally almost killed him.
    I commend the President for recognizing that there is no 
better man for the job of Ambassador to Afghanistan than Ryan 
Crocker. I also commend Ambassador Crocker for again answering 
his country's call to service. In Afghanistan today, a new 
generation of Americans, both military personnel and civilians, 
is writing the inspiring next chapter to the history of our 
great Nation. The challenge for all of us, in our time of 
service, is to strive to be equal to these heroic fellow 
Americans.
    In nominating Ryan Crocker as Ambassador to Afghanistan, 
the President has chosen a man who is worthy of the service and 
sacrifice of those he must lead. I hope all of you will reach a 
similar judgment and vote him out of committee quickly so that 
the full Senate can confirm Ambassador Crocker as rapidly as 
possible.
    And I'd like to finally add, I think that the chairman and 
ranking member and others would agree with me. We've had the 
great privilege of having so many outstanding Americans serve 
in our diplomatic service in our State Department, and 
Americans probably are not appreciative of the enormous 
sacrifices they make. There is no greater example of that kind 
of service and sacrifice than the man whose nomination is 
before you today.
    I thank the chairman, and I apologize for the length of my 
opening statement.
    The Chairman. Well, Senator McCain, no apology needed at 
all. I think it's a very important statement. I appreciate the 
fact, both the length and the thought that went into it. I 
think it's very helpful to the committee. It's important for 
the record, and I think it really states in a very articulate, 
clear way the assets that Ambassador Crocker brings to this 
task. And I think it's important that you've said those things 
and I've said those things so that the message goes clear to 
President Karzai, to President Zardari, to others in the region 
that this is a serious person that we all have confidence in 
and brings a great deal of experience. So I think your 
introduction was, frankly, superb and really welcome. Thank 
you.
    Ambassador Crocker, you're flying alone now, but you've 
done that a lot. So we are delighted to welcome your testimony 
and you to the committee.
    You know how it works. If you want to put your full 
statement in the record as if read in full, it will be placed 
there. If you want to summarize, we can then have a good 
dialogue and look forward to the questions. Thank you.

    STATEMENT OF HON. RYAN C. CROCKER, OF WASHINGTON, TO BE 
       AMBASSADOR TO THE ISLAMIC REPUBLIC OF AFGHANISTAN

    Ambassador Crocker. Thank you, Mr. Chairman, Senator Lugar, 
members of the committee. I appreciate the opportunity to 
appear before you today as President Obama's nominee to become 
U.S. Ambassador to the Islamic Republic of Afghanistan. And I'm 
very grateful to Senator McCain for his most generous 
introduction and for his recognition of the Foreign Service, my 
colleagues that over the years have labored hard on behalf of 
America's vital interests and sometimes paid the ultimate 
price.
    I am also grateful to the President and to Secretary 
Clinton for placing their trust in me. If confirmed, I look 
forward to cooperating with you to advance America's interests 
in Afghanistan.
    I had the privilege of opening the Embassy in Kabul in 
January 2002. As you noted, I worked closely with President 
Karzai in those early days and developed respect for his 
commitment to a stable, unified Afghanistan. If confirmed, I 
look forward to renewing our relationship and working together 
toward that vision.
    I also had the honor of serving as the U.S. Ambassador to 
Pakistan from 2004-07, which developed my understanding of the 
region and which, if confirmed, I hope will be a useful asset 
as we work with our regional and international partners.
    As you know, our core goal in Afghanistan and Pakistan is 
to disrupt, dismantle, and defeat al-Qaeda and to deny it safe 
haven in those countries. Osama bin Laden's death is an 
important step, but much work remains to be done to ensure that 
al-Qaeda can never again threaten us from Afghanistan, with the 
Taliban providing safe haven.
    Our efforts to pursue this goal are focused on three 
mutually reinforcing surges--military, civilian, and 
diplomatic--all aimed at stabilizing Afghanistan so it will not 
become a safe haven for terrorists again.
    The military and civilian surges that President Obama 
announced in 2009 have stolen momentum from the Taliban-led 
insurgency. Today, more than 1,100 U.S. civilian experts are 
serving alongside our troops to help establish the conditions 
for a sustainable and irreversible transition of security 
responsibility to the Afghan Government. If confirmed, it will 
be an enormous privilege to serve with these courageous and 
committed Americans.
    Working together with the Government of Afghanistan and our 
coalition partners, we have made significant progress. But as 
you have noted, as the President has noted, this progress is 
still fragile and reversible. Enormous challenges remain: 
governance; rule of law, including corruption, which undermines 
the credibility of the Afghan state; narcotics; sustainable 
economic development, including employment, increased revenues, 
along with the capacity for the government to provide basic 
services such as education and health care. Failure in some of 
these areas can mean failure of the state and the creation of 
an environment in which our strategic enemies can regroup. 
Making progress on these issues has been hard, and it will go 
on being hard, but hard does not mean impossible. As Secretary 
of Defense Gates has noted, we walked away from Afghanistan 
once in 1989 with disastrous consequences. We cannot afford to 
do so again.
    Ultimately, all of this will be an Afghan responsibility, 
realized through a responsible transition. A key U.S. priority 
in Afghanistan is supporting the Afghan-led transition process 
that was agreed upon by the Afghans and NATO-ISAF partners at 
the November 2010 NATO summit at Lisbon. This process will 
enable Afghans to systematically assume full responsibility for 
their security across Afghanistan by the end of 2014.
    The transition process will begin this July with the 
transfer of lead security responsibility to the Afghan National 
Security Forces in seven provinces and municipalities, which I 
understand contain roughly one-quarter of the Afghan 
population. If confirmed, I will work hand in hand with our 
military partners, as I did as the U.S. Ambassador in Iraq, to 
continue this responsible, conditions-based transition to an 
Afghan security lead.
    Alongside this transition process, the Afghan Government 
has launched a peace effort to reconcile insurgents. President 
Karzai formed a High Peace Council that includes 
representatives from across Afghanistan. The United States 
supports this Afghan effort. Over the last 2 years, we both 
have laid out our unambiguous redlines for reconciliation with 
the insurgents: renounce violence; abandon their alliance with 
al-Qaeda; and abide by the Constitution of Afghanistan and its 
protections for all Afghans, including women. Those are 
necessary outcomes of any negotiation. If former militants are 
willing to meet these redlines, they would then be able to 
participate in the political life of the country.
    If confirmed, Mr. Chairman, I will work closely with 
Ambassador Grossman, our Special Representative to Afghanistan 
and Pakistan, and Ambassador Munter in Pakistan, among others, 
to continue our efforts to build support for an Afghan-led 
reconciliation process. I will maintain our efforts to support 
Afghanistan's long-term reconstruction, sustainable economic 
development, and the strengthening of key Afghan institutions 
critical to ensuring that transition is sustainable and 
irreversible.
    We do look forward to a long-term relationship with 
Afghanistan and have initiated negotiations on a long-term 
Strategic Partnership Declaration with the Afghan Government in 
March of this year. This political framework document will help 
normalize our relationship and provide a roadmap for our 
political, economic, and security cooperation. We respect 
Afghanistan's proud history of independence, and we do not seek 
any permanent military bases in their country or a presence 
that would be a threat to any of Afghanistan's neighbors.
    In closing, I want to thank this committee for the support 
it has provided and continues to provide for the vital work of 
the U.S. mission in Afghanistan. As you know, Mr. Chairman, you 
have held a series of useful hearings over the past several 
months to examine our policy in Afghanistan and Pakistan and, 
if confirmed, I will listen to your guidance and continue a 
dialogue with Congress on our progress on the ground. And in 
that context, I would note that I've just received a copy of 
the report you cite. So if confirmed, I think I know where that 
dialogue is going to begin.
    I will also ensure that the precious U.S. taxpayer 
resources being used in Afghanistan are applied effectively, 
transparently, and with an eye toward the long-term 
sustainability of these efforts by the Afghans themselves.
    As the Secretary said in her February 18 speech at the Asia 
Society, ``The United States is not walking away from the 
region. We will not repeat the mistakes of the past. Our 
commitment is real and it is enduring.'' As we approach the 
10th anniversary of the horrible attacks of September 11, it is 
a time to remember those who died that day and to honor the 
sacrifices that so many Americans have made, military and 
civilian, to ensure that Afghanistan never again becomes a safe 
haven for terrorists from which they can attack America.
    Thank you, Mr. Chairman, Senator Lugar, members of the 
committee. I look forward to your questions.
    [The prepared statement of Ambassador Crocker follows:]

            Prepared Statement of Ambassador Ryan C. Crocker

    Mr. Chairman, Senator Lugar, members of the committee, thank you 
for the opportunity to appear before you today as President Obama's 
nominee to become U.S. Ambassador to the Islamic Republic of 
Afghanistan. I am grateful to the President and to Secretary Clinton 
for placing their trust in me. If confirmed, I look forward to working 
closely with you to advance America's interests in Afghanistan.
    I had the privilege of opening the Embassy in Kabul in January 
2002. I worked closely with President Karzai in those early days and 
developed a great deal of respect for his commitment to a stable, 
unified Afghanistan. If confirmed, I look forward to renewing our 
relationship and working together to help the Afghans realize our 
shared vision for the future of their country, one that is free, 
secure, democratic, and can stand on its own feet, and plot its own 
course toward its destiny. I also had the honor of serving as the U.S. 
Ambassador to Pakistan from 2004-07, which developed my understanding 
of the region and, which, if confirmed, I hope will be a useful asset 
as we work with our regional and international partners towards a 
stable Afghanistan.
    As you know, our core goal in Afghanistan, and Pakistan, is to 
disrupt, dismantle, and defeat al-Qaeda, and to deny it safe haven in 
those countries. Our efforts to pursue this goal are focused on three 
mutually reinforcing surges--military, civilian, and diplomatic. Osama 
bin Laden's death is an important step toward achieving this objective, 
but much work remains to be done to ensure that al-Qaeda can never 
again threaten us from Afghanistan with the Taliban providing safe 
haven.
    The military and civilian surges that President Obama announced in 
2009 have stolen momentum from the Taliban-led insurgency. Today, more 
than 1,100 U.S. civilian experts are serving alongside our troops to 
help establish the conditions for a sustainable and irreversible 
transition of security responsibility to the Afghan Government.
    Working together with the Government of Afghanistan and our 
coalition partners, including many Muslim majority nations, we have 
made significant progress, but this progress is still fragile and 
reversible. Enormous challenges remain: governance; rule of law, 
including corruption, which undermines economic growth and the 
credibility of the Afghan state; narcotics; sustainable economic 
development, including adequate employment opportunities, increased 
revenues along with the capacity for the government to provide basic 
services, such as education and health care. Failure in some of these 
areas can mean failure of the state and the creation of an environment 
in which our strategic enemies can regroup. Making progress on these 
issues has been hard, and it will go on being hard. But hard does not 
mean hopeless. As Secretary of Defense Robert Gates has noted, we 
walked away from Afghanistan once in 1989 with disastrous consequences. 
We cannot afford to do so again.
    Ultimately, all of this will be an Afghan responsibility, realized 
through a responsible transition. A key U.S. priority in Afghanistan is 
supporting the Afghan-led transition process that was agreed upon by 
the Afghans and NATO-ISAF partners at the November 2010 NATO summit at 
Lisbon. This process will enable Afghans to systematically resume full 
responsibility for their security across Afghanistan by the end of 
2014. President Karzai has repeatedly, and understandably, requested 
that the United States and our partners and allies phase out parallel 
structures and move to less intrusive forms of assistance that enable 
the Afghans take control of their own future. We support that goal and 
appreciate President Karzai's March 22 speech announcing the start of 
transition.
    This transition process will begin this July with the transfer of 
lead security responsibility to the Afghan National Security Forces in 
seven provinces and municipalities, which contain roughly 25 percent of 
the Afghan population. If confirmed, I will work hand in hand with our 
military partners, as I did as the U.S. Ambassador in Iraq, to continue 
this responsible, conditions-based transition to Afghan security lead, 
which is a major priority for President Karzai.
    Alongside this transition process, the Afghan Government has 
launched a peace effort to reconcile insurgents. President Karzai made 
a good start by convening a broad-based Peace Jirga last June that set 
out a framework for national reconciliation. He then formed a High 
Peace Council that includes representatives from across Afghanistan. 
Council leaders are holding meetings in key provinces throughout the 
country with tribal leaders, civil society, women, and villagers to 
hear their hopes and concerns for a reconciliation process. They are 
working to form local councils to begin engaging the insurgents and the 
broader community.
    The United States supports this Afghan effort. Over the past 2 
years, we both have laid out our unambiguous redlines for 
reconciliation with the insurgents: renounce violence; abandon their 
alliance with al-Qaeda; and abide by the constitution of Afghanistan 
and its protections for all Afghans, including women. Those are 
necessary outcomes of any negotiation. This is the price for reaching a 
political resolution and bringing an end to the military actions that 
are targeting the insurgency's leadership and decimating its ranks. If 
former militants are willing to meet these redlines, they would then be 
able to participate in the political life of the country under their 
constitution.
    As transition proceeds and Afghan leadership strengthens across the 
country, a process of political reconciliation will become increasingly 
viable. In turn, successful reconciliation will reduce the threat to 
the Afghan Government, making transition more sustainable. If 
confirmed, I will work closely with Ambassador Grossman, our Special 
Representative to Afghanistan and Pakistan, and Ambassador Munter in 
Pakistan among others, to continue our efforts to build support for an 
Afghan-led reconciliation process. I will maintain our efforts to 
support Afghanistan's long-term reconstruction, sustainable economic 
development, and strengthening of key Afghan institutions critical to 
ensuring that transition is sustainable and irreversible.
    The United States and our partners will continue to support the 
Afghan Government and a durable responsible political settlement. 
Toward that end, we initiated negotiations on a long-term Strategic 
Partnership Declaration with the Afghan Government in March 2011. This 
political framework document will help normalize our relationship with 
the Afghan Government, and provide a roadmap for our long-term 
political, economic, and security cooperation. In no way should our 
enduring commitment be misunderstood as a desire by America or our 
allies to occupy Afghanistan against the will of its people. We respect 
Afghans' proud history of independence, and we do not seek any 
permanent American military bases in their country--or a presence that 
would be a threat to any of Afghanistan's neighbors.
    In closing, I want to thank this committee for the support it has 
provided and continues to provide for the vital work of the U.S. 
mission in Afghanistan. You have held a series of useful hearings over 
the past month to examine our policy in Afghanistan and Pakistan and, 
if confirmed, I will listen to your guidance and continue a discussion 
with Congress on our progress on the ground. I will also ensure that 
the precious U.S. taxpayer resources being used in Afghanistan are 
applied effectively, transparently, and with an eye toward the long-
term sustainability of these efforts by the Afghans themselves.
    As the Secretary said in her February 18 speech at the Asia 
Society, ``The United States is not walking away from the region. We 
will not repeat the mistakes of the past. Our commitment is real and it 
is enduring.'' As we approach the 10th anniversary of the heinous 
attacks of September 11, it is a time to remember those who died that 
day and to honor the sacrifices that so many Americans have made, 
military and civilian, to ensure that Afghanistan never becomes a safe 
haven for terrorists from which they can attack America.
    Thank you Mr. Chairman and members of the committee, I look forward 
to your questions.

    The Chairman. Thank you very much, Ambassador Crocker.
    I want to come back--that last sentence sort of hit me, and 
I want to come back to it in a minute. But let me say, first of 
all, that I support and agree with the transition process that 
will begin this July with the lead responsibility going to 
Afghan security forces in seven provinces, representing the 
somewhat roughly 25 percent of the Afghan population. Clearly, 
the Taliban are trying to disrupt that with their increased 
violence in the last days, targeting some of the governors and 
high-level officials.
    I also am particularly supportive of the Afghan-initiated 
peace process, the reconciliation President Karzai has 
initiated with his broad-based jirga last year and the things 
coming out of it that you have mentioned in your testimony.
    My concern is a little bit in sort of pinning down our own 
definitions here and the breadth of what you've said, and 
particularly this sort of notion, ensure that Afghanistan never 
becomes a safe haven for terrorists from which they can attack 
America.
    I think we have to really kind of bear in on this question 
of what that really entails. What is a safe haven, and how much 
guarantee is there? To the degree there's a safe haven, if 
that's what we're worried about, and we want to spend dollars 
most efficiently, the safe haven is in the western part of 
Pakistan. We're spending $120 billion in a country where there 
is no safe haven and about $2.8 billion where there is a safe 
haven.
    The Haqqani Network, the Quetta Shura, Lashkar-e-Taiba, 
Jaish-e-Muhammad, these folks are the problem, and they're the 
ones responsible for most of the violence that's taking place 
in Afghanistan.
    So I think the question is how do we get this right? I 
mean, what I saw in RC East when I was there a few weeks ago 
convinced me that if all we do is the current paradigm where 
attacks are launched out of the western part of Pakistan, we're 
not going to find a very successful road here. I'd like you to 
comment on that.
    Ambassador Crocker. Thank you, Mr. Chairman. These are very 
important points. I have said in testimony before this 
committee during that brief but happy interlude when I was out 
of the Service that you cannot really succeed in Afghanistan 
without a fair measure of success in Pakistan. That's why I 
think your legislation, the Kerry-Lugar-Berman legislation, a 
multiyear commitment, was so important.
    These are hard problems to solve. I wrestled with them as 
Ambassador to Pakistan. I had numerous meetings, as you've had, 
with the Pakistani leadership to press on the Quetta Shura, on 
the Haqqani Network, and clearly with the most limited of 
results.
    So again, I think that is why the administration has been 
right in talking about the two nations together and having 
Ambassador Grossman now succeeding Ambassador Holbrooke so that 
you do have an approach that crosses the borders, because 
certainly that's what the militants are doing.
    How to crack that conundrum? Sir, I know you have made huge 
efforts, as has Secretary Clinton, Ambassador Grossman in 
recent weeks. We'll have to see whether the Pakistanis do take 
these actions. And as I noted in my statement, I look forward 
to working with Ambassador Munter, as well as Ambassador 
Grossman, because we face a common problem.
    The last thing I'd say, Mr. Chairman, is, quite frankly, 
the reason that most of the problem is in Pakistan and not in 
Afghanistan at this time is because we are in Afghanistan. And 
as we go through a responsible transition, it I think has to 
be, as the President and others have said, conditions-based to 
ensure that as we draw down our forces--and I'm keenly aware 
from my consultations of the mood both here on the Hill and 
publicly, there has to be transition. But at the end of the 
day, we have to be sure that the safe haven doesn't then 
relocate from Pakistan to Afghanistan.
    The Chairman. I understand that. The question is, Does it 
take 150,000 troops to guarantee that doesn't happen?
    Ambassador Crocker. Mr. Chairman, that's again a question 
that the President will be seized of. I am not part of those 
deliberations or consultations, and indeed----
    The Chairman. That's an unfair question. It's a question 
that's on the table. I want to put the question to you, but I 
understand you're not part of those deliberations now, so I 
don't expect you to answer it today.
    But let me ask you this. In your testimony you say enormous 
challenges remain: governance; rule of law, including 
corruption which undermines economic growth, credibility of the 
Afghan state; narcotics; sustainable economic development, 
including adequate employment opportunities, increased 
revenues, along with the capacity for the government to provide 
basic services; education; health care. Failure in some of 
these areas can mean failure of the state and the creation of 
an environment in which our strategic enemies can regroup.
    Can you narrow that down for us? Which of those areas means 
failure of the state and are essential to the accomplishment of 
our goal?
    Ambassador Crocker. I think clearly the issues of 
governance, rule of law and corruption have to improve if 
Afghanistan is to go forward as a stable state charting its own 
destiny.
    The Chairman. Are you saying, then, that taming corruption 
is essential to our capacity to achieve our goal of preventing 
strategic enemies from regrouping?
    Ambassador Crocker. I think corruption, Mr. Chairman, and I 
draw on my Iraq experience here, corruption totally unchecked 
becomes, as prominent Iraqis put it, a second insurgency. It 
undermines the confidence on the part of the people in their 
government, and it makes groups like the Taliban look 
attractive.
    Mr. Chairman, we're not out to clearly create a shining 
city on a hill. That's not going to happen. That would apply to 
all of these sectors I've mentioned. But there needs to be 
progress. We went through the same thing in Iraq. We chipped 
away at it. Over time, we got them to take some measureable, if 
partial, steps on the issue of corruption so that you have a 
situation in Iraq today that is not, again, a city on a hill, 
but where they have a good chance of carrying forward without 
U.S. forces on the ground.
    It's the same kind of dynamic that I think we have to go 
through in Afghanistan, not to solve these problems----
    The Chairman. Do you think that billions of dollars coming 
from America that are spent through contractors which don't 
have adequate oversight contributes to corruption?
    Ambassador Crocker. It's certainly something I'm going to 
take a careful look at, Mr. Chairman. I have met with the State 
Department's inspector general. They, as you know, did a recent 
report. We have your staff report. I have spoken to colleagues 
in government. It's clear that there is a need for more 
contracting officer representatives. State and AID recognize 
this. There have been initiatives that you're aware of and that 
the staff report notes USAID forward, the Accountable 
Assistance for Afghanistan initiative, the military's Operation 
Transparency.
    So I think there clearly have been problems. I think 
equally clearly there is a recognition that we have to be a 
part of the solution, not a part of the problem, and I'm 
encouraged by what I've heard of the steps that have been 
taken.
    The Chairman. Senator Lugar.
    Senator Lugar. Ambassador Crocker, this committee has 
discussed, as you have in your opening statement, the 
possibility of passing to the Afghans control over military and 
police functions, presumably for seven provinces or about 25 
percent of Afghanistan, with the thought of this as the first 
of such large transitions in the next few years, hopefully 
occurring before 2014.
    I want to ask, however, about the whole conduct of the 
Afghan state and really how the budget of Afghanistan is put 
together, in other words, how its obligations are paid for. 
Now, in the case of the military and the police, the training 
has been paid for largely, if not completely, by the United 
States and its allies, and the sustenance of all of that will 
be expensive.
    But beyond that, enlighten us a little bit more about 
commerce in Afghanistan. That is, how do ordinary people make a 
living? What kind of industries are there? What sort of 
investment has been coming into the country or has been 
generated by any profits or success?
    The reason I ask this question is that many stories about 
Afghanistan's economy indicate that the income coming into that 
government is pretty low given the ambitions of Afghans and the 
United States and its allies, which causes the resources 
required in maintaining some level of security to constitute a 
significant expense. But with regard to civil society and the 
economy moving forward, thoughts have come even from President 
Karzai himself in personal visits with Members of Congress that 
Afghanistan has remarkable natural resources that might be 
found, extracted, and sold to others in due course, but that 
this will require a considerable amount of investment and a 
security environment in which the safety of investors can be 
better guaranteed. Of course, many of the investors may or may 
not be friends of ours, or may have very different foreign 
policy views.
    Now, I don't mean to make the question impossibly complex, 
but as you survey the scene, how is Afghanistan going to raise 
revenue? And second, if Afghanistan is not able to raise 
revenue, are you in your preparation for this ambassadorship 
working with the State Department or other officials on some 
estimates as to what obligations the United States may have for 
many years to come? I don't mean solely our expenditures 
related to our military's continuing involvement there in the 
near future. Instead, I'm focusing on the long run, as some 
with whom we've raised this question in previous hearings have 
said, as a matter of common sense, that our obligations will 
last for a long time, for a decade or even decades.
    This really has to be an important part of our calculations 
as Members of Congress working with the administration now on 
5- or 10-year budget plans for the United States. This could be 
a major factor, and if we do not get it right, it could have 
very grave consequences for Afghanistan or their expectations 
that the American support might be forthcoming.
    Can you discuss this general area?
    Ambassador Crocker. Thank you, Senator. It is a very 
important and, as you note in your question, a very complex set 
of issues.
    And again, at this point I have, shall we say, an imperfect 
understanding of exactly how Afghanistan works, having not yet 
been confirmed and not having gotten out there. But I did note 
employment and economic development because I think these are 
critical factors.
    How does the economy work now? Services are an important 
part. Agriculture is an important part. I am told that the 
agricultural sector accounts for 80 percent of employment in 
Afghanistan, which is why I think we have to continue to 
support its development in a reasonable way that leads to, 
again, ultimately an Afghan capacity to carry forward.
    Senator Lugar. What part of that is drugs as opposed to 
legitimate crops?
    Ambassador Crocker. I'm talking about the part that isn't 
drugs, primarily wheat. We would certainly like to see them 
move into, as they want to do, higher yield products such as 
fruit and pomegranates, which Afghanistan used to be famous for 
and which provide a better return to the farmer actually, I'm 
told, than poppies.
    But based on what I know, I think the administration is 
right in dealing with the narcotics issue, not to emphasize, as 
we tried at one point, the eradication but alternatives, 
economic alternatives that cause Afghans themselves to turn 
away from these kinds of things.
    I'd make a couple of other brief points on the Afghan 
economy. As you know, there are substantial mineral resources 
over the longer term. These can be a significant benefit to the 
state, but this will take time for them to develop and, as you 
point out, it's going to require security conditions. The 
development of a robust private sector is going to be 
important, and I am pleased to learn that OPEC is significantly 
engaged in Afghanistan, working on upward of 50 projects. I 
would like to see United States private investment come into 
Afghanistan. I worked hard on that in Iraq with some success.
    Customs revenues have to pick up, and I know there is a 
major effort underway where our trainers, mainly from the 
Department of Homeland Security, are working side by side with 
the Afghan border police. Corruption gets into this, too, but 
they've got to increase their revenues.
    The final point I'd make is Afghanistan is a country 
centrally located in an important region. I think the Afghan-
Pakistan Trade and Transit Agreement was a very important step. 
I understand that President Karzai will be visiting Islamabad 
in just a few days time, I think the day after tomorrow, which 
is good in and of itself. Obviously, the leaders of the two 
countries talk through their issues.
    But I understand one of the objectives is to lay out the 
actual implementation of this agreement, because Afghanistan as 
a trade and transit center through Pakistan, into India, up 
into the former Soviet Republics to the north, with Iran, I 
think all of that can provide a major difference for Afghans' 
economic future.
    Senator Lugar. My time is expired, but I just want to 
underline I think it's a remarkable fact you presented, that 80 
percent of the employment of Afghanistan is in agriculture. 
That is huge, and success in this area is obviously paramount. 
But I get back to the fact that while perhaps eventually the 
Congress or the public will have a better idea of the budget of 
Afghanistan, most estimates analyzing Afghanistan's budget 
indicate that the government's revenues are a very, very small 
percentage of its obligations, both from a security standpoint 
as well as the commercial standpoint that we're talking about.
    So I get back to my problem, and that is how long a stream 
of income from the United States going to Afghanistan is going 
to be required. If assistance to Afghanistan at current levels 
is not forthcoming in the future, is it likely that the economy 
and the security situation there will collapse, causing 
Afghanistan to be back to square one again regardless of any 
success we achieve in the meantime in providing some security 
there?
    But I thank you again for at least that discussion, and as 
you get out there you will have more to say.
    Thank you, Mr. Chairman.
    The Chairman. Thank you so much, Senator Lugar.
    I'll recognize Senator Casey, and I'm also going to pass 
the gavel to Senator Casey because I need to go to another 
committee.
    Ambassador Crocker, I hope you'll forgive me for that, but 
I appreciate your testimony this morning. As I said earlier, 
we're going to try to move your nomination as rapidly as we 
can, hopefully have a business meeting in short order and get 
the full Senate to move on it. We look forward to getting you 
there, and I thank you again for coming in and for your 
willingness to do this.
    Senator Casey.
    Senator Casey. Mr. Chairman, thank you very much, and 
thanks for this hearing.
    Ambassador Crocker, it's great to see you again, and we're 
so grateful for your public service and your willingness to 
commit yourself to yet another very difficult assignment. But I 
know that you're not only prepared but I have confidence, total 
confidence that you'll be confirmed, and you should be 
confirmed because we need you there, we need you on the ground.
    I wanted to raise a couple of questions with you. And 
again, I'd also commend the commitment that your family makes 
when you take on a tough assignment like this.
    But I wanted to bring you back to a meeting that you and I 
had, and I've spoken about this a number of times, but I think 
I keep coming back to it because I think it has a lot of 
relevance to not just our policy in Afghanistan but where we 
are now this year, this summer, making some difficult 
decisions, the Congress, the administration, and the American 
people.
    And I start with the setting. It was in Iraq, and it was a 
small group of people, and you were there. It was in August 
2007. And I was complaining at the time, very bluntly, about 
the language that was used to describe progress in Iraq, 
victory and defeat, win or lose, all language which I thought 
was not only inappropriate but, frankly, sometimes misleading, 
I hope not deliberately so, at the time in Washington. I won't 
cast blame on who used the language, but a lot of folks did, 
and it was wrong. It was wrong then; I think it's wrong now.
    And I asked you at the time what language do you think is 
appropriate to the mission, and you gave a very cogent answer. 
But what I remember most about it was that you said two words, 
sustainable stability, which has stayed with me ever since.
    So I ask you, in light of this mission which is, frankly in 
my judgment, more complicated, as difficult as Iraq was, a 
different set of priorities, and frankly a different set of 
challenges in Afghanistan. But I ask it in light of some of the 
real numbers that folks in Pennsylvania live with, and I know 
comparable numbers around the country.
    We have--we're at 70 right now killed in action. Sixty-nine 
is the last number I saw, but it could actually be now 70, 
which is about a third of where we were with regard to Iraq. We 
fell just short of 200 there, 197, 198, depending on what 
accounts you read. So we're about a third of the killed in 
action as we were in Iraq in Afghanistan now. The wounded 
numbers, my numbers in Pennsylvania are 455 in Afghanistan, 
1,233 in Iraq. So again, about a third of the number in Iraq as 
it relates to the wounded.
    And I guess what people want to know, taxpayers want to 
know, certainly the families that have loved and lost, families 
that are contributing at a minimum the time and the sacrifice 
of their loved ones, is what is the mission and therefore what 
is the goal? And I'd ask you to comment on that in light of the 
discussion we had in 2007.
    Ambassador Crocker. Thank you, Mr. Chairman. I do clearly 
recall that conversation. That was shortly before the September 
2007 hearings that General Petraeus and I took part in, and 
again, as you may recall from that conversation, I was not 
among those who have ever used the words ``winning'' or 
``victory,'' not then, not now, not in Iraq, not in 
Afghanistan.
    Sustainable stability were words or a concept that I stood 
by then and would stand by now in the case of Iraq. Another way 
to put it is good enough governance, governance that is good 
enough to ensure that the country doesn't degenerate back into 
a safe haven for al-Qaeda, and that's what I was attempting to 
get at in my conversation with Chairman Kerry, I think before 
you arrived, that there is no intention that I see in any of my 
consultations here, I certainly don't come with such an 
intention to produce the perfect society. We can't. But I think 
by judicious use of resources and conditions-based 
redeployments and transfers of responsibility as will begin 
this July, we can get to that sustainable stability.
    I have always been and always will be frank and open with 
this committee. It's my responsibility as an official if you so 
choose to make me one again, but even as a citizen. As I look 
at Afghanistan's past, the 50 years of relative tranquility 
from, say, 1928 to 1978, Afghanistan did require outside 
assistance, and we provided some very important contributions 
to their economic development that are still favorably 
remembered through the Point 4 program, which later became 
USAID.
    So in my--well, again, I'm not well informed enough to lay 
this out as a thoroughly considered view, but I would 
anticipate--and this gets a bit at what Senator Lugar was 
touching on--that beyond 2014 there will be a requirement for 
outside assistance from the international community, and I 
think part of our obligation is being sure that the 
international community continues to understand that they have 
a great deal at stake here. This is not an American problem 
only or an American obligation.
    But that, in short, is how I would view it, getting--and 
it's going to be incremental. It's going to be kind of issue by 
issue, case by case as to what sustainable stability and good 
enough governance is going to look like, but that certainly is 
what I see as my responsibility.
    Senator Casey. Thank you. I'm over on my time, but I'll ask 
you a second round about how we measure that, and I think 
that's also something a lot of the American people are 
concerned about.
    Senator Menendez.
    Oh, I'm sorry. Senator Cardin.
    Senator Cardin. I thought I moved up one in seniority. 
That's OK.
    Senator Casey. Senator Ben Cardin, State of Maryland, Class 
of 2006.
    Senator Cardin. Ambassador Crocker, first of all, thank you 
very much for your service. You have served our Nation with 
great distinction, and I thank you for that, and I thank you 
for your willingness to come back into public service. I can 
think of no one
who is more qualified for the position than you in a very tough 
situation.
    As everyone is suggesting, Afghanistan needs to change, its 
United States role in Afghanistan needs to change. We could 
talk about the military aspects and the fact that we are 
looking toward a redeployment of our combat troops starting in 
the next month or two, and that we expect that we might be able 
to accelerate that considering the current status of terrorist 
organizations operating in the region.
    Now, having said that, I want to concentrate on the other 
part of our role. We have had our military presence, but we 
also have had an effort to provide economic development 
assistance to the people of Afghanistan. Now, I know you just 
recently got the report that was commissioned by this 
committee, but let me just share with you some observations 
that should not be a surprise.
    It's rather critical of the efficiency of the deliverance 
of our aid to accomplish any long-term economic stability for 
the people of Afghanistan. It also questions as to whether we 
really are operating with a leadership team in Afghanistan that 
can deliver the type of economic promise for the people; and 
probably worse than that, that we're creating an arbitrary 
economic activity in the country based upon a war economy that 
will not be sustainable, and that we are, in fact, creating an 
inflationary situation within Afghanistan that will cause a 
serious problem as we transition to a country that can take 
care of itself, admittedly with international assistance. I 
don't deny the long-term need for humanitarian and economic 
assistance to the people of Afghanistan.
    My question is one of how you see your role as the 
Ambassador to assist us in being able to evaluate how we can 
transition the United States role and be as helpful as we can 
so the Afghans can take care of their own people and that we 
have at least a strategic ally in our war against terror. How 
do you see using the information that you have learned or will 
learn or know from the region to assist in helping us, the 
United States Senate, in transitioning to the next phase in 
Afghanistan?
    Ambassador Crocker. Thank you, Senator. It's clearly an 
important question. I see my responsibilities at a number of 
levels.
    First, it is ensuring that we are properly organized as a 
civilian mission, as an embassy, to ensure that our assistance 
is accountable and it is effective, and effective for me means 
it's got to be about transition, building Afghan capacity, 
helping the Afghans again carry forward without assistance at 
this scale in the future.
    So I know that Administrator Shah and Deputy Secretary 
Nides have provided some responses already to this report. I 
have not had the chance to go through it in depth, but I know 
it will be useful to me if I'm confirmed out at post looking at 
how we're structured and deployed, looking at our programs and 
being sure they're effective, again to this end of sustainable 
stability, with the Afghans increasingly taking the lead. So, 
you know, obligation begins at home within the Embassy.
    The second thing that I clearly would be focusing on is 
developing a partnership with the Afghan Government. Our 
programs have to support their vision and have to be 
sustainable by them, and I know that we already have in place 
several mechanisms, formal mechanisms that focus on transition. 
This is a major concern of President Karzai. He has chosen 
Ashraf Ghani, who I also came to know in my early days in 
Afghanistan, to head this up from his side precisely so that we 
don't create that unsustainable wartime economy.
    I understand that USAID and other donors have already taken 
steps, for example, to ensure that they are not inflating 
salaries. I think that would be very important. For example, 
the worst thing we could do I think is be competing with the 
Afghan Government for talent. It needs all it can get and a lot 
more to function as a government. So that would be another key 
part of it.
    It's their country, and how it moves forward is ultimately 
their responsibility. I want to establish myself as a reliable 
partner but keeping the emphasis on sustainable development and 
transition, which is what they themselves seek.
    And third, I would say again this will have to be in 
consultation with Ambassador Grossman and others. We have a lot 
of international partners engaged in Afghanistan, NATO and non-
NATO. The United Nations plays an important role, the special 
representative to the Secretary General. Staffan de Mistura 
performed that role in Iraq, and I cooperated closely with him 
there. I look forward to doing the same in Afghanistan.
    As I said earlier in a slightly different context, 
Afghanistan is not a uniquely American problem. It is a threat 
to international peace and security and requires an ongoing 
international commitment. So what role I play in that is still 
something to be sorted out, but clearly I believe I will have a 
role to play. I hope that gives you some sense of----
    Senator Cardin. I thank you for your answer. I think it's 
going to be a real challenge because we're not necessarily 
paying salaries or competing with the Afghan Government. We're 
paying salaries that look like we're giving just cash bonuses 
well above reasonable salaries to make friends with Afghans, 
which ends up supporting a corrupt system.
    Thank you, Mr. Ambassador.
    Senator Casey. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Mr. Ambassador, I'm here out of respect for you as a person 
and the role you've played in much of our foreign policy. I 
know we had an extensive conversation in our office. General 
Petraeus has asked that we support efforts in Afghanistan 
through this fighting season, and I think people, generally 
speaking, have been willing to do that. But I think you sensed 
certainly in our conversation, but probably among numbers of 
people here, we're expecting pretty dramatic changes at the end 
of this fighting season and expect and know that you will help 
guide those changes into a different place.
    All of us know the model that we have in Afghanistan is not 
sustainable for multiple reasons that we've talked about again 
in detail in private, and I'm just here to thank you today for 
your willingness to do this. I don't know why you'd come back 
and do this other than you're a great American, and we thank 
you for that.
    And again, without belaboring, I know there's numbers of 
questions that we can ask you that you cannot answer yet, but I 
think you all know there's a great degree of--it's not 
impatience--a great degree of us knowing that what we're doing 
there is not sustainable that is greatly changing the character 
of the country that your knowledge there hopefully will help us 
do, and the partnership that doesn't exist the way that it 
should in Pakistan also. But again, we thank you for that. I 
look forward to talking to you on the ground in Afghanistan, 
and I thank you for your willingness to do this.
    Ambassador Crocker. Thank you, sir.
    Senator Casey. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    And, Ambassador, let me pile on with everybody else. You're 
clearly a national treasure here, and we're happy to see that 
you are going over into that part of the world.
    I think my major concern--and you and I had the opportunity 
to discuss this when you visited with me--is how we define our 
strategic objectives in Afghanistan and how that matches up 
with what we are able to actually accomplish in a cost-benefit 
way. I think this is one thing you're hearing from a lot of 
people right now.
    How much do we actually need to achieve in Afghanistan with 
respect to our national interest? How much do people want to 
achieve that may be above what we need to and are we getting 
into this area of nation-building? How much can we achieve? And 
how much of that actually benefits our strategic objectives? 
That's what I've been struggling with for more than a year now.
    I don't know if you saw the column that Peggy Noonan wrote 
recently for the Wall Street Journal. It's been a few weeks. I 
don't have it in front of me, but she clearly is not a radical. 
She was one of the bright lights of the Reagan administration 
in which I was very proud to serve. One of the strong comments 
that she was making was if there is any nation in the world 
that needs nation-building right now, it's the United States of 
America. And when we're putting hundreds of billions of dollars 
into infrastructure in another country, it should only be done 
if we can articulate a vital national interest because we, 
quite frankly, need to be doing a lot more of that here.
    Time is short obviously, but could you please articulate 
your view of the strategic interest of the United States in 
Afghanistan and how the current military policy can help to 
bring us to an endpoint in that strategic objective?
    Ambassador Crocker. Thank you, Senator. That is, of course, 
the essential question. As I said in my statement, and as the 
President and others have said, our ultimate strategic 
objective is to disrupt, dismantle, defeat al-Qaeda, and in the 
Afghan context to ensure that Afghanistan never again becomes 
what it was before
9/11, an area in which al-Qaeda can reconstitute itself under 
protection of like-minded elements.
    Senator Webb. I watched your opening statement from my 
office, and I don't disagree with the objective. But you can 
pretty well fight international terrorism without remaking an 
entire societal structure. Wouldn't you agree? And I know--I 
watched your comment about how they are not in Afghanistan now 
because they are in Pakistan--because we're in Afghanistan, et 
cetera. But you can end up in that region playing ``whack-a-
mole.''
    So the real question is what is the ultimate objective with 
all of these ground forces and all these infrastructure 
programs in terms of the long-term advantage?
    Ambassador Crocker. Again, an important and multifaceted 
issue. What we've seen with the additional forces and the 
effort to carry the fight into enemy strongholds is, I think, 
tangible progress in security on the ground in the south and 
the west.
    This has to transition, and again we're seeing a transition 
of seven provinces and districts to Afghan control, to 
sustainable Afghan control. So I think you can already see what 
we're trying to do: province by province, district by district, 
establish the conditions where the Afghan Government can take 
over and hold ground. And you're absolutely right, you don't 
have to build a whole nation, I think, to achieve that.
    Senator Webb. International terrorism and guerilla warfare 
in general is intrinsically mobile. I fought a guerilla war in 
Vietnam, and I've written about this for a long time. So 
securing one particular area--I don't say this critically but 
out of concern for where this policy is going it doesn't 
necessarily guarantee that you've reduced the capability of 
those kinds of forces. They're mobile, they move. The reason 
that they're international in scope is that they do not align 
themselves with any particular governmental structure. I just 
want to lay that out as an area of continuing concern.
    I want to ask you one more question in the time that we 
have. I mentioned to you when you visited my office, and that 
is we tend to speak of the conciliators in this region simply 
along the Pakistan-Afghanistan-India axis, when I believe there 
is a role here that China could play if they would step up to 
the mat and be a little more overt in their willingness to 
participate in these types of solutions. They're clearly going 
to benefit if there's more stability in the region. What are 
your thoughts on that?
    Ambassador Crocker. It's a great point, Senator. That's--as 
we talk about the three elements of our strategy, the third one 
is very much involved in regional engagement. And I would join 
you in including China in that discussion.
    The Chinese, as you are aware, have the copper concession 
in Afghanistan. OK, that's great. You can only really make that 
pay off for you if the conditions on the ground permit its 
extraction and its transport.
    Senator Webb. They also have a long relationship with 
Pakistan. I know there are some people who would say that's 
overstated, but clearly they do, and in fact when Chairman 
Kerry returned here from Pakistan, that same day while we're 
sitting here in a hearing the Prime Minister of Pakistan 
immediately made a state visit to China and was welcomed and 
then stated that China was Pakistan's greatest friend.
    I wish you the best. I am grateful that you are undertaking 
this, and I look forward to visiting you and perhaps continue 
our discussion.
    Thank you, Mr. Chairman.
    Ambassador Crocker. Thank you, sir.
    Senator Casey. Senator Shaheen.
    Senator Shaheen. Thank you. Ambassador Crocker, I join my 
colleagues in thanking you for your willingness to continue to 
serve the country, and I think I certainly stand ready, and I'm 
sure all of us do, to be helpful to you as you take on this new 
assignment.
    I know that you haven't had a chance to review the report 
that was released this morning from the committee, but I think 
it does provide a renewed perspective on how difficult the 
challenges are in Afghanistan, particularly the civilian 
challenges, and much of that has been discussed by others here.
    But the report certainly underscores the need for our 
reconstruction projects in Afghanistan to be necessary, 
achievable, and sustainable. And I know there have been some 
concerns about the projects undertaken under the CERP program. 
I certainly share concerns about how those dollars are 
distributed. And I, like others, have called for a number of 
steps to try and address more accountability in Afghanistan.
    I'm very pleased to see the overhaul of the Special 
Inspector General for Afghanistan Reconstruction, something 
that I thought also was long overdue; the appointment of the 
senior civilian representative to serve as a counterpart to the 
military commander there.
    And I wonder--I know you haven't gotten on the ground 
there, but I wonder if you can assess at this stage what 
difference that might be making in Afghanistan and what you 
would expect your relationship as Ambassador to be with those 
two civilian counterparts there.
    Ambassador Crocker. Thank you, Senator. I join you in a 
concern for accountability. I was Ambassador in Iraq, as you 
know, and I think we all learned a lot of hard lessons.
    I would hope to see those lessons being applied now in 
Afghanistan, and I think they are through some of the 
initiatives you note and others that I mentioned earlier, the 
USAID Forward Initiative, Operation Transparency that the 
military runs, the joint military-USAID vetting mechanism for 
contractors, the Accountable Assistance for Afghanistan 
Initiative, and so forth.
    One of my first consultations was with the State inspector 
general. I had a very close working relationship with the head 
of SIGAR in Iraq, Stuart Bowen, who I have a lot of regard for. 
So again, I'm pleased that SIGAR seems to be moving forward 
with real capability, and if confirmed I look forward to 
welcoming the GAO, which I understand plans to set up a 
permanent staff in the fall.
    I think all of these institutions--the State IG, the USAID 
Regional Inspector General, SIGAR, the GAO--all have an 
important responsibility in ensuring oversight and 
accountability. And you know the phrase, ``we're here to 
help.'' Well, sometimes help can be painful. But in my 
experience in Iraq, I found that kind of oversight to be 
absolutely essential going forward, and I will certainly, if 
confirmed, employ the same approach in Afghanistan.
    Senator Shaheen. And are there experiences from your time 
in Iraq that you think can be helpful in terms of coordinating 
all these efforts? Because for those of us looking at what's 
going on on the ground, as you point out, there are a lot of 
people there trying to address oversight and accountability, 
but how is all of that getting coordinated? We know we have 
General Petraeus on the military side, but is there a similar 
command structure on the civilian side, and who is responsible?
    Ambassador Crocker. Thank you for that question because it 
is an important one, Senator. Basically, there are two and only 
two U.S. commanders in Afghanistan, as there were in Iraq, one 
military and one civilian. The civilian commander is the U.S. 
Ambassador, and I would like to say that as I have consulted 
and read in, I think Ambassador Eikenberry has done an amazing 
job in the swift ramp-up of the civilian presence in ensuring 
that it has been done in an orderly and organized manner.
    Obviously, if confirmed, I will need to make my own 
assessments. But my sense is he has handled a huge challenge 
with great care, thoughtfulness, and ability.
    There are microcoordination issues, and this may be what 
you were referring to. I have an obligation to see that the 
entire U.S. mission is effectively carrying out its various 
roles. I also want to be sure that the accountability element 
of this, the different inspection agencies are themselves 
coordinated. We had to wrestle with this a bit in Iraq so that 
we did not have different inspectors inspecting the same thing 
and not working in coordination.
    There's also, of course, a whole military inspection 
apparatus which also has to be woven into this. So as I did in 
Iraq, again I have a responsibility of seeing that the whole 
mission is operating effectively, and again I give huge credit 
to Ambassador Eikenberry that, if confirmed, I have the sense 
I'm going to be inheriting a going concern, but also on the 
specific issue that our accountability and oversight mechanisms 
are working as a team and not in isolation or competition with 
each other.
    Senator Shaheen. Thank you.
    Senator Casey. Senator Coons.
    Senator Coons. Thank you, Senator Casey. I'll join the 
other members of this committee in thanking Ambassador Crocker 
and your family for your willingness to come out of retirement 
and take on yet again another vital mission for the United 
States, this time in Kabul. And I'm very encouraged by your 
successful previous service in Iraq and the very difficult 
circumstances that you negotiated there.
    I was concerned on my one visit to Afghanistan as a 
relatively new Senator to hear repeatedly about our 
generational commitment to the stability and security of the 
nation of Afghanistan. In your opening testimony you cited 
Secretary Gates' comment that we walked away from Afghanistan 
in 1989 with disastrous consequences and we cannot afford to do 
so again, and I think in the previous questions by Senator 
Lugar and others a number of us are trying to get at the 
question if we're not going to walk away, how long are we going 
to stay, and at what level?
    And there is a lot of focus on the immediate decision about 
a drawdown, but I'm really equally, if not more, interested in 
the post-2014 structure and what it looks like, and was very 
surprised to hear in-country assertions that we were committed 
to sustaining a more than 300,000-member Afghan National 
Security Force, which meant paying for it, and to a sustained 
U.S. military presence for the foreseeable future, a decade or 
more.
    You also made a comment that we are not seeking permanent 
military bases in Afghanistan, and I wondered, just as my first 
question, if you'd comment on the importance of achieving a 
United States-Afghan strategic--excuse me--a U.S.--in Iraq you 
achieved a strategic agreement that allowed for long-term 
stabilization. What importance is there in Afghanistan to our 
having a long-term United States or coalition military 
presence? Where do you think we are headed in terms of 
retaining strategic regional abilities? And how sustainable do 
you really think, past 2014, assistance required to support a 
300,000 ANSF really is?
    A few questions, right? Nothing really difficult at all. 
These are shared questions that I think many of us are 
confronting.
    Ambassador Crocker. Well, they certainly are the mega 
questions, and they're important ones. They're ones, if 
confirmed, I'll be very much focused on since I would expect to 
be out there for a couple of years. And I'm not ducking by 
saying that I just don't know the answer now.
    You know, I do think that we have an interest, again, in 
ensuring that the country doesn't backslide, that it just does 
not again become an al-Qaeda safe haven. I think we all would 
share that. The trick is how do you do it, how much does it 
cost, and how long does it take? And these are questions that 
my colleagues and I will have to work on, and we're accountable 
to you as you ask them.
    I do think, as we saw in Iraq, that by going in big, you 
can then come out small. Now, Iraq has oil, and it always helps 
to have oil, moving aside the corruption issue there. They can 
pay for a lot of things that the Afghans can't.
    I do think the Strategic Partnership Declaration process is 
important, as the Strategic Framework Agreement was in Iraq. It 
lets both countries kind of know where they want to move in the 
future. Obviously, the SPD is going to look different than the 
Strategic Framework Agreement in Iraq, but I think broadly 
speaking it's intended to serve the same purpose.
    In terms of the ultimate end state for Afghan National 
Security Forces, the target is to, as you know, is to have the 
police and army combined at the 300,000 level by this October. 
To me, that is not a number that's engraved in stone and it 
would never change. I think, again--and I'm speculating here. I 
mean, we just have to see how circumstances develop over time, 
as this first transition of seven districts and provinces takes 
place, how they do. And farther down the road, 2014, 2015, the 
Afghans may decide that they really don't need a security force 
of this size.
    Senator Coons. Another key factor to the sustainable 
progress in Iraq was the not just reconciliation but the 
reintegration of more than 100,000 through the Sons of Iraq 
program. So far, reintegration of the Taliban is going quite 
slowly. It isn't proceeding at anything like the pace you and 
others were able to accomplish in Iraq.
    Do you think reintegration is going to be critical? 
Because, frankly, the size of the Afghan National Security 
Force required is partly directly correlated to the size of the 
ongoing insurgency or Taliban or other extremist activity.
    Ambassador Crocker. It's a great question, Senator, because 
you're right, and we haven't talked that much about this so 
far. The Afghans are focused on two elements to bring this 
insurgency to an end. One is reconciliation, kind of big R, and 
then the other reintegration, which I guess would be little R. 
Both I think are premised on a concept we would all share, 
which is that you can't kill your way out of an insurgency. 
There has to be ultimately a political solution.
    I think reintegration is part of it. I'm told that there 
are some 2,500 former insurgents that are either processed or 
in process. It's an Afghan process, of course, and I think 
Afghan capacity is again an issue here about how fast they can 
move.
    There is another element that I think is significant, and 
that is the Afghan local police initiative, not quite like the 
Sons of Iraq. The Sons of Iraq, as you remember, was a pretty 
varied group. Some of them were former insurgents, some were 
not. The Afghan local police initiative focuses on individuals 
who want to stand up for their community and who were not part 
of the insurgency. I think their numbers are 6,000, and I've 
been advised that we expect to be able to continue to expand 
that possibly to 10,000 by September.
    Again, in the lessons learned category, the Sons of Iraq 
were never tied to the Iraqi Government until quite late in the 
process, when the Prime Minister made some undertakings to 
incorporate some into the security services and provide 
civilian employment for others. The Afghan local police have 
started out linked to the Ministry of Interior. So you've got 
all three of those in play, all three Afghan supported and 
Afghan led, which I believe is important.
    Clearly, we'd like to see the reintegration process move 
more quickly, and if confirmed, that is something that will 
have my focus because it can be a very--as it was in Iraq, it 
can be a very important component of a broader process.
    But unlike Iraq, I think the ultimate solution will come 
through a successful reconciliation process, and we'll see what 
effect the death of Osama bin Laden might have on Taliban 
leadership attitudes, to what extent the linkage is personal 
rather than institutional. I don't think we know the answer to 
that yet, but it is going to be a very important question.
    Senator Coons. Thank you for your answers, Ambassador. 
Thank you.
    Senator Casey. Thank you, Senator Coons.
    I'd ask our distinguished ranking member, Senator Lugar, do 
you have a second round?
    I wanted to ask one question. I know Senator Shaheen might 
also have a followup, as well as if Senator Coons does.
    Just one quick question, and we can amplify this, or I 
should say you can amplify this, Ambassador Crocker, with 
written responses. But I wanted to ask you a related question 
about the set of questions I asked you about how the American 
people view the mission and the goals and how we define it.
    One way to analyze that not just for Members of Congress 
but for the American people is to have metrics, measurements, 
reporting that we know we've had in place. There's probably a 
good debate about whether they're adequate enough. We learned a 
lot in the conflict in Iraq about how difficult that can be to 
measure and to report, but I think we've got to have metrics 
like that in place.
    I want to get your assessment of kind of where we are with 
that and how you view that, similar to what Senator Shaheen 
talked about with regard to accountability and having some 
reporting so that as people analyze the policy and debate it, 
they have some way to measure progress.
    Ambassador Crocker. It's an important point, Mr. Chairman. 
And again, I think it's part of that accountability process 
that Senator Shaheen was alluding to, how do you measure 
progress. And as you point out, that can be hard in certain 
areas. In other areas, I think it's easier.
    In education, for example, we know how many Afghan kids are 
in school, over 7 million, 2\1/2\ million of whom are girls. 
And again, as we consider our costs and our options, I just 
would like to take a minute, with your permission, to comment 
on girls and women in Afghanistan.
    One of the first things USAID did when we reopened the 
Embassy in January 2002 was to start educational programs for 
girls who were completely shut out of the educational system, 
as you know, under the Taliban. And in the middle of January 
2002, on a freezing day, I took then-Senator Biden to visit a 
girls' school that we had just established. We visited a first 
grade class that had girls whose ages ranged from 6 to 12 
because the 12-year-olds had become of school age when the 
Taliban took over.
    And I remember asking a 12-year-old whether it bothered her 
at all to be kind of in there with the little kids, and she 
said I am just so happy to have the chance for an education. I 
was touched at the time, and I still am.
    As we consider, again, hard options, it certainly is my 
intention to see that there would be nothing in my 
recommendations and nothing in policy decisions over which I 
might have input or control that would put at risk half the 
population of Afghanistan, the girls and women who still face 
some significant challenges but who are in school, in business, 
and in government.
    So I'm sorry for a slight digression, but again, it does 
touch at metrics. I think these are things we can measure, and 
I take the point. I mean, I'm not far along into this to be 
able to give you large quantities of statistics, and not 
everything is measureable that way. But I take the point that 
that which can be measured and metricized should be, so the 
American people and the Congress have a sense of what is 
actually happening out there.
    Senator Casey. Senator Shaheen.
    Senator Shaheen. Thank you, and thank you very much, 
Ambassador Crocker, for that commitment, because that's exactly 
what I was going to ask as we talk about the potential for 
reconciliation and reintegration of the Taliban, how do we 
ensure that women's rights aren't traded away in any 
negotiations. And I think for all of us who have watched what's 
happened in Afghanistan, one of the biggest concerns as I think 
about what happens after the United States leaves is what 
happens to half of the population, who is women. So I very much 
appreciate your commitment to ensure that those rights are 
protected.
    Senator Casey. Senator Coons.
    Senator Coons. Thank you, Senator Casey. If I might, just 
one last question, to take us back to I think the very first 
point Chairman Kerry raised about Pakistan and the 
disproportionate or significantly different investment we're 
making in prosecuting the war in Afghanistan and then trying to 
sustain this uneven partnership, relationship, whatever it is 
with the people of Pakistan.
    As a former Ambassador to Pakistan, I just wanted to ask 
your advice or input on how you see the prospects of our ever 
being successful in persuading the Pakistanis to change their 
relentless focus on India as the primary source of threat to 
their nation and instead throw in their lot more decisively 
with us in the war on extremism, particularly against the 
Quetta Shura in North Waziristan and against LET, and what 
initiatives you think we can or should be taking to engage New 
Delhi in this and in helping realign the strategic calculus of 
the Pakistanis.
    Ambassador Crocker. Thank you, Senator. I would imagine 
that my colleagues from Legislative Affairs would say you're 
not the nominee for Pakistan, so be careful, but I was the 
Ambassador to Pakistan, and it is an important question.
    The Pakistanis, of course, have been engaged against 
militants on their soil, and they have lost a very large number 
of forces fighting them. So it's not like they're not doing 
anything. But the problems of Lashkar-e-Taiba, the Haqqani 
Network, the Quetta Shura, as you note, persist.
    Just in recent weeks since the death of bin Laden, of 
course, we've had a number of senior visitors who have engaged 
the Pakistanis, including the chairman, as well as Secretary 
Clinton, Admiral Mullen, and Marc Grossman, and they have made 
some statements. It's clearly going to be important for them to 
follow through on them.
    With respect to India, I'm pleased to see from my possible 
future perspective in Afghanistan that the dialogue between the 
foreign secretaries of the two nations has resumed. I think 
that's an important step. I hope they sustain it and they 
broaden it because clearly the degree to which India and 
Pakistan start to see some capacity to work together, it's to 
the benefit of the region, and it's to the benefit of us. But 
again, that falls to the purview of others, particularly as it 
relates to India.
    Senator Coons. Thank you. Thank you for your input, and 
thank you for your willingness to take on this vital mission.
    Senator Casey. Thank you, Senator Coons.
    Ambassador Crocker, I'm going to be leaving. I'm going to 
be turning the gavel over to Senator Menendez. He will be the 
next questioner. But we're grateful for your service, and thank 
you for the testimony today.
    And with that, I'll turn to Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Ambassador, thank you for your past service, and for 
your willingness to continue serving. We had a good discussion 
when you came to my office, and I would like to pursue some of 
the things we discussed at that time.
    I know you don't determine war strategy, but I do wonder 
what your role will be as Ambassador in terms of informing 
Congress about where we're at. I'm one of those who believe 
that we would be more successful in Afghanistan by reducing our 
troop presence in the south and continuing support for 
institution-building in the north. It seems to me that a 
counterinsurgency strategy, which is where we fight insurgents 
to give the government time to gather the wherewithal to stand 
up for itself, defend itself and govern itself might be a 
worthwhile policy if we had a solid partner in this regard, 
which in my view we do not.
    That present policy has had an enormous toll on American 
lives and on American treasure, and I don't think we've won the 
hearts and minds.
    So give me a sense. Do you believe that we're making 
sustainable progress in the south? I know that we're clearing 
and holding, but after that, it will not be sustainable for us 
to be able to stay. What happens in the follow-on?
    Ambassador Crocker. Thank you, Senator, and thank you also 
for the time you gave me in your office. That was very valuable 
to me in trying to get my mind around the big issues.
    We, as you point out, are successfully clearing and holding 
in the south and the west. We're also going to be transitioning 
seven provinces and districts in the month of July to Afghan 
security control, and I don't have the list right in front of 
me, but some of those are in these areas, as I understand it.
    It will be an important step because that ultimately is our 
goal and their goal for the entire nation. They are assured 
that they can do this. What I understand from my briefings is 
that we are confident that they have the capabilities in these 
seven districts to do it. And if successful, that will be a not 
bad start to the transition that we and they are committed to, 
to cover the whole country.
    Senator Menendez. What role will you play in helping to win 
over Pashtuns and other groups in the south?
    Ambassador Crocker. Again, at this stage in the process, I 
cannot answer that with exact certainty because it will be part 
of a process of consultation with others who are involved in 
this matter, in particular Ambassador Grossman, who is both a 
friend and a colleague.
    That said, as the Afghans move toward a concentrated 
reconciliation effort, I would certainly see a role for the 
Embassy in working closely, as we already do, with Pashtuns in 
the south. My position in Iraq was basically that we would talk 
to anybody who would talk to us and not ask a lot of questions 
as we entered those conversations, at least initially. Now, 
whether I can get away with this in Afghanistan or not, I don't 
know. But I do think it's important that we know what southern 
Pashtuns are thinking, as it is important we know what northern 
Tajiks and Hezaras and so forth are all looking at, especially 
as a tricky reconciliation process moves forward.
    Senator Menendez. Well, let me turn to a field that I do 
think you do have a lot to say about, and that is what is the 
continuing use of U.S. taxpayer dollars for an assistance 
mission. My understanding is that the President's goal is to 
reportedly shift from a military mission to an assistance 
mission in Afghanistan, and that that mission is to help 
rebuild lives and institutions to create a functioning 
government. We've done this before, but we've done this with 
more committed partners, from my perspective.
    From 2002 to 2010, we have spent $19 billion in assistance, 
and much of which is not sustainable is subject to endemic 
corruption. I know that there is a report about to be released 
suggesting that we have had only limited success, and this huge 
attempt at nation-building may not survive an American 
withdrawal, which is a real concern to me.
    Is this a good use of U.S. taxpayer dollars?
    Ambassador Crocker. I think we have had some significant 
successes with our assistance.
    Senator Menendez. Could you put on your microphone?
    Ambassador Crocker. Sorry. I think we have had some 
significant successes with our assistance, and I understand the 
report touches on some of those--that would certainly include 
education--we were talking about before you came in, and the 
provision of basic health services. What I can tell you, 
Senator, is that I am committed to ensuring that the assistance 
we provide (a) makes an important positive difference, (b) can 
be implemented, and (c) can be sustained.
    I would agree personally with the three basic conditions 
that I saw in the report, which I haven't had the chance to 
fully study, that our assistance projects should be necessary, 
achievable and sustainable. I know that Administrator Shah and 
Deputy Secretary Nides have responded on behalf of their 
respective offices. They are the ones to speak authoritatively 
on the matter. But I can tell you that if I am confirmed, I 
mean going forward, our assistance has to make a difference and 
it has to be sustainable to build capacity.
    Senator Menendez. You say we have some successes. Quantify 
for me in the context of $19 billion what is success.
    Ambassador Crocker. Well, I think clearly in education, 
which was an early priority for us, the success of getting over 
7 million kids into school, 2\1/2\ of those being girls, that 
would be a metric of success.
    Senator Menendez. If we put a dollar figure on that, what 
would that be? Do we have any sense of that?
    Ambassador Crocker. I can certainly get that for you.
    [In answer to the above question, a written reply from 
Ambassador Crocker follows:]

    Since 2002, $685m has been spent on education in Afghanistan, or 
roughly 3.6 percent of the total budget. Please know that while this 
figure is derived from USAID and State funding, this figure does not 
include DOD funding being spent on education programs in Afghanistan.

    Senator Menendez. If you could get it to us, I'd appreciate 
it, because I'd consider that a success, but I don't think 
that's $19 billion, and this is--I'd admonish the audience that 
we appreciate your attendance, but we're not subject to 
comments.
    I'm going to support your nomination. That's not the issue. 
My point is that you're going to be in a role that is, yes, 
diplomacy, yes, foreign policy, and I hope you look at it as a 
fiduciary to the American taxpayer, because right now I do not 
believe that we are being good fiduciaries to the American 
taxpayer. Do you believe that the Karzai government is doing 
what it needs to do to be an effective, honest, and transparent 
partner?
    Ambassador Crocker. There are several elements, again, to a 
very important question. I'll start with the last. I noted in 
my statement that I got to Kabul in the beginning of January 
2002, just about 10 days after President Karzai had been named 
by the Bonn Conference as chairman of the Afghan Interim 
Authority, and I worked very closely with him during those 
early days.
    I believe he is committed to a unified, stable Afghanistan, 
and I look forward to renewing that relationship. I'm certainly 
going to make every effort as the Ambassador to have a 
productive working relationship with the head of state to which 
I'm accredited.
    Have we had differences? Are there things that we wish he 
would or would not have done? Are there things that he wishes 
we would or would not have done? Of course there are. One key 
issue is corruption. For the sake of the State of Afghanistan, 
the Afghan Government is going to have to do more. We wrestled 
with the same thing in Iraq, and you don't get positive change 
overnight. But Prime Minister Maliki in Iraq expressed an 
awareness of the problem, and incrementally some steps were 
taken. We have seen President Karzai make the same commitments.
    Words do count. Deeds count for more. But I would start, if 
confirmed, from the assumption that we do have partners in the 
Afghan Government. That is certainly what I hear in my 
consultations. Some effective gubernatorial appointments in the 
provinces, some increasingly effective members of the Karzai 
Cabinet, that's a critical part of capacity-building and 
transition. I would see that as, again, a key responsibility to 
help them develop that capacity.
    Senator Menendez. Well, I'll just say that when I see the 
reports, both public and private, about where our money has 
gone, where the corruption is, and I see Karzai talk about the 
United States as an occupying force, I have real problems 
having American lives shed and having American treasure 
continuing to be shed. My understanding is that for that FY 
2002 to 2010, we spent $672 million on education. That's far 
from $19 billion of success.
    One last question before I turn it over to Senator Risch.
    What is the United States position and your position on the 
efforts to alter the U.N.'s 1,267 list of persons associated 
with the Taliban and al-Qaeda? Under the proposed plans, I 
understand that two separate lists would be created, one for 
each militant organization, and this separation would likely 
provide the Afghan Government with a much greater say over 
which Taliban would be on the new list and possibly allow them 
to remove more than 100 people from the 450-person list that 
presently exists, providing them with freedom to travel and 
access to the banking system.
    Do you support that effort, which would ultimately decide 
who stays on the list and who gets off, and are you concerned 
that potentially dangerous individuals can be removed from the 
list?
    Ambassador Crocker. Senator, this is one of many issues, 
frankly, that I am not fully briefed or fully up to speed on. 
I'm aware of it. Again, the policy of the administration has 
been that for reconciliation to take place, insurgents, the 
Taliban, have to renounce violence, break with al-Qaeda and 
agree to respect the Afghan Constitution. I can't speak for the 
administration on this matter because I don't know if they have 
a position.
    I would be concerned about individuals who have a record of 
extremist violence against us and against the Afghans having 
freedom of movement and an ability to kind of do whatever they 
want. But again, I cannot be authoritative on that matter.
    Senator Menendez. I look forward to pursuing that with you 
because I'm concerned about where we're headed with these 
lists.
    Senator Risch.
    Thank you for your answers.
    Senator Risch. Thank you, Senator Menendez.
    Mr. Crocker, first of all, thank you for what you do for 
America. Certainly, your qualifications are impeccable here for 
this job. I can tell you this, I don't envy what you're about 
to take on. I've been following this hearing electronically 
because I've had other things going, but let me just say that I 
share some of the skepticism that--in fact, that's probably an 
understatement. I share a lot of the skepticism that's been 
expressed here this morning.
    This is a messy situation that isn't getting any better, 
and since I've been elected to the U.S. Senate, people back 
home keep asking me what's going to happen, how is this going 
to end, what kind of progress is being made there. Certainly 
militarily we've done well, I believe, but beyond that, this is 
very, very difficult, and to articulate what our objectives are 
and what our goals are and how this is going to end with us 
achieving those is very, very difficult to grasp, let alone to 
convey to the American people.
    So I wish you well. The problems here are very, very 
significant, and I'm glad you're the one that's going there 
because I think that you're the right person to do this job.
    But again, I'm very skeptical about how we're going to be 
able to end this. So, thank you.
    Ambassador Crocker. Thank you, Senator. I'm under no 
allusions of the difficulty of the challenge. If Iraq was hard, 
and it was hard, Afghanistan in many respects is harder. All I 
can promise to you and the other members is that if confirmed, 
I will give you an honest assessment of what conditions and 
situations are, what are achievable ways forward, and what may 
not be achievable. That much I certainly undertake to do.
    Senator Risch. And I appreciate that, and I think your 
observation regarding Iraq and Afghanistan is appropriate. Too 
often people try to compare the two, and it's a comparison of 
apples and oranges. What we're trying to give to the Afghan 
people and have worked at for 10 years and given them in blood, 
sweat, and tears, you really, really wonder whether they want 
what we're trying to give them. And if they don't want what 
we're trying to give them, it's not going to work. So that's 
kind of where I am on it.
    Thank you very much again for your service. I wish you 
well, take care of yourself over there. Thank you very much.
    Senator Menendez. Thank you, Senator Risch.
    With that, seeing no other members, the record will remain 
open for 48 hours. We ask the Ambassador to respond to any 
questions as expeditiously as possible so we can move the 
nomination.
    And with that, this hearing is closed.
    [Whereupon, at 11:28 a.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
